TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                   Integrated Financial System Updates Are
                  Improving System Security, but Remaining
                       Weaknesses Should Be Addressed



                                          March 28, 2013

                              Reference Number: 2013-20-030




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number | 202-622-6500
 E-mail Address | TIGTACommunications@tigta.treas.gov
 Website        | http://www.treasury.gov/tigta
                                                     HIGHLIGHTS


INTEGRATED FINANCIAL SYSTEM                             Connection, providing for data encryption and
UPDATES ARE IMPROVING SYSTEM                            eliminating security weaknesses in the Citrix and
SECURITY, BUT REMAINING                                 IFS Windows 2000 environments. With
WEAKNESSES SHOULD BE                                    successful implementation of System
                                                        Application and Products Enterprise Central
ADDRESSED
                                                        Component 6.0, the IRS expects that the IFS will
                                                        be in compliance with current Federal laws and
Highlights                                              accounting standards and will address the
                                                        security weakness related to Oracle database
Final Report issued on March 28, 2013                   software.
                                                        As planned, IFS updates address compliance for
Highlights of Reference Number: 2013-20-030             specific information technology security controls.
to the Internal Revenue Service Chief Financial         However, improvements are needed to better
Officer and Chief Technology Officer.                   ensure that: 1) remaining IFS security
IMPACT ON TAXPAYERS                                     weaknesses are adequately addressed and
                                                        2) system requirements testing consistently
The Integrated Financial System (IFS) is the            complies with established IRS guidelines.
IRS’s core financial system and annually assists
the IRS in accounting for approximately                 WHAT TIGTA RECOMMENDED
$12 billion in operational funds.                       TIGTA recommended that the Chief Technology
The IFS was implemented as a major project              Officer work with the Chief Financial Officer to:
under the IRS’s Business Systems                        1) apply existing or implement additional access
Modernization Program, but in November 2005             controls to ensure that IFS users are restricted
the system was reclassified as Operations and           to IRS employee sensitive data on a “need to
Maintenance funding. For Fiscal Years 2012              know” basis; 2) implement control checks to
and 2013, the IRS requested nearly                      prevent IFS users from accessing unauthorized
$37.5 million to upgrade the IFS. Recently, the         IRS employee accounts or prepare a risk-based
IRS initiated approximately $10.5 million in            decision and accept the risk; 3) implement
system updates for the IFS that include:                two-factor authentication in a future release and
1) encryption of graphical user interface traffic,      identify a form of multifactor authentication for
2) update of the platform with functional               IFS system administrators; 4) ensure that all
enhancements, and 3) support of a Department            applicable system requirements for IFS test
of the Treasury mandate for all Federal                 cases include expected results; and 5) ensure
agencies. The IRS planQHG to complete                   that all IFS testers obtain and maintain
deployment of these system updates in                   documentation to verify test case results.
November 2012.                                          In its response, the IRS agreed with our
WHY TIGTA DID THE AUDIT                                 recommendations. The IRS plans to restrict
                                                        access to sensitive employee data to only those
This audit was initiated to determine whether the       users with a “need to know” basis; evaluate the
IRS has adequately planned for recent updates           identified low risk to determine if a risk-based
of the IFS to support long-term goals and to            decision is needed; implement the new version
mitigate risks in accordance with the Department        of the Secure Network Connection module once
of the Treasury, IRS, and other systems                 its certification is completed in late 2013; ensure
development guidelines. TIGTA evaluated key             that the IFS is included in the current program-
management controls and processes, project              level mitigation strategy to implement two-factor
funding, and system security risks.                     authentication; and link its Rational Quality
                                                        Manager to its requirements repository so that
WHAT TIGTA FOUND                                        requirements test management can be properly
In July 2012, the IRS implemented the System            documented.
Application and Products Secure Network
                                           DEPARTMENT OF THE TREASURY
                                                WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                           March 28, 2013


 MEMORANDUM FOR CHIEF FINANCIAL OFFICER
                CHIEF TECHNOLOGY OFFICER


 FROM:                       Michael E. McKenney
                             Acting Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – Integrated Financial System Updates Are
                             Improving System Security, but Remaining Weaknesses Should Be
                             Addressed (Audit 201220013)

 This report presents the results of our review of updates to the Integrated Financial System. The
 overall objective of this review was to determine whether the Internal Revenue Service (IRS) has
 adequately planned for Integrated Financial System updates to support long-term goals and to
 mitigate risks in accordance with the Department of the Treasury, IRS, and other systems
 development guidelines. This audit was included in the Treasury Inspector General for Tax
 Administration Fiscal Year 2012 Annual Audit Plan and addresses the major management
 challenge of Modernization of the IRS.
 Management’s complete response to the draft report is included as Appendix V in the attached
 PowerPoint presentation.
 Copies of this report are also being sent to the IRS managers affected by the report
 recommendations. Please contact me or Alan Duncan, Assistant Inspector General for Audit
 (Security and Information Technology Services), if you have questions.


 Attachment

   201320030-Final
      Report.pdf
   TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




      Integrated Financial System Updates
       Are Improving System Security, but
   Remaining Weaknesses Should Be Addressed

                                              March 28, 2013
                            Reference Number: 2013-20-030

This report has cleared the Treasury Inspector General for Tax Administration disclosure review process and information determined
                     to be restricted from public release has been redacted from this document.
                              Table of Contents
Background…………………………………………………………………………...........                                                     4
Audit Objective…………………………………………………………………………….                                                         9
Results of Review…………………………………………………………………………..                                                       10
  IFS Updates Address Compliance and Specific Security Weaknesses..................................   11
  Remaining IFS Security Issues Should Be Addressed…………..…………………...……………                              12
        Recommendations 1 and 2………………………………………………………………………..                                          16
        Recommendation 3:…….………..……………………………………..…………..…………….                                         19
        Recommendation 4:…….………………..……………………………………………………….                                            21
  Systems Requirements Testing Processes Did Not Consistently Comply With Guidelines………               22
        Recommendation 5:……..………………………………………….………………………..........                                     24
        Recommendation 6:…….………………………………………..………………………………..                                           26
Appendices…………………………………………………………………………………                                                             27
  Appendix I – Detailed Objective, Scope, and Methodology……………………………………...                            27
  Appendix II – Major Contributors to This Report………………………………………………...                                31
  Appendix III – Report Distribution List…………………………………………………………..                                     32
  Appendix IV – Glossary of Terms………………………………………………………………...                                          33
  Appendix V – Management’s Response to the Draft Report..…………………………………….                             35
                  Abbreviations
Abbreviation                              Description
    CFO        Chief Financial Officer
    CTO        Chief Technology Officer
    ECC        Enterprise Central Component
    FIPS       Federal Information Processing Standards
    IFS        Integrated Financial System
    IRM        Internal Revenue Manual
    IRS        Internal Revenue Service
   NIST        National Institute of Standards and Technology
    PII        Personally Identifiable Information
    RBD        Risk-Based Decision
    SAP        Systems Applications and Products
    SNC        Secure Network Connection
    SSN        Social Security Number
    SSP        System Security Plan
                               Background
   In November 2004, the Internal Revenue Service (IRS) replaced the
    Automated Financial System with the Integrated Financial System (IFS).
    The IFS is the IRS’s core financial system and annually accounts for
    approximately $12 billion in operational funds.
   The IFS was implemented as a major project under the Business Systems
    Modernization Program and supports the IRS’s administrative financial
    operations.
   In November 2005, the IFS was reclassified as Operations and
    Maintenance funding.
   The IFS has 24 custom interfaces with systems belonging to the IRS,
    Department of the Treasury, and General Services Administration. The
    IFS Data Transfer Service uses these interfaces to transport data files in and
    out of the IFS.




                                                                                     4
   The IFS provides processes and reports (Figure 1) for the following:
       General ledger, accounts receivables, and accounts payable
        (Financial Accounting module).
       Budget execution (Funds Management module).
       Cost accounting (Controlling module).
       Purchasing (Materials Management and Purchasing module).
       Budget formulation (Business Warehouse module).
   IFS management stated that the system does not process or report on the
    IRS’s tax revenues and refunds. 1




_________________________

1 The IFS provides some tax processing functionality for Health Coverage Tax Credit payments.
                                                                                                5
                                        Figure 1: Overview of IFS Processes
                                                                  Budget
                                                                Formulation
                                                          $                                                                            Processe
        THE INTEGRATED                                                                                                          KEY:       s
                                                                                                                                                   Interface
                                                                                                                                                       s
         THE  INTEGRATED
            SYSTEM
              SYSTEM                                                                                                                   Bold = SAP module


                                                                                                                               User
                                                                 Budget                                                        Fees
                                                                                                Reimbursable
       SPENDING AUTHORITY/                                      Execution                        Agreements
                                                                                                                                                     PCC
            RECEIPTS
                                                              (Funds Management)                    (FM)
                                                                     (FM)




                                             Req to Check/IPAC                        Tax & Travel
         OBLIGATIONS/
                                              (FM, MM, AP, AR)                        (FM, AP, AR)
         EXPENDITURES
                                                                  Pay
                                                                   to    $
                                                                                                           GovTrip
                              RTS/IPS
                                                                                                            -TRAS

                                        Accrual entries                                     Accounting balance
                                        Payroll                                                        analysis
                                        processing                                            Month end close
                                        Reconciliation
                                        FTLRF
                                                                                                Year end close
                                                                                                      Financial
                                                                                                                                          Cost
       ACCOUNTING FUNCTIONS             UCEF                                                        statements                         Management
                                        HCTC                                                               Tier
                                        Fixed Assets                                             Other reports                            (CO)
                                        Other entries




                                                                                                                        Business
                                                                  HCTC          TIER          AINFC                    Warehouse                      HR
                                                                                                                          Cash                            ct
                                                                                                                                                    Conne
                                                                                                                     reconciliation
                                                                                                                         Payroll
                                                                                                                      reconiliation
                                                                                                                       OSL report
               Year End Close
                                                               Month End Close
               Open New Year                                   (MM, AR, AP, FM, GL)
               (MM, AR, AP, Tier)
                                                                                                                        GOALS



Source: Office of the Chief Financial Officer. AINFC = Automated Interface National Finance Center; AP = Accounts Payable;
AR = Accounts Receivable; FM = Funds Management; FTLRF = Federal Tax Lien Revolving Fund; GL = General Ledger;
GOALS = Government On-Line Accounting Link System; HCTC = Health Coverage Tax Credit; HR = Human Resources;
IPAC = Intra-Governmental Payment and Collection; IPS = Integrated Procurement System; MM = Materials Management;
OSL = Obligation Subsidiary Ledger; PCC = Paper-Check Conversion; RTS = Request Tracking System; SAP = Systems
Applications and Products; TRAS = Travel Reimbursement & Accounting System; and TIER = Treasury Information Executive
Reporting; UCEF [sic] = UCFE = Unemployment Compensation for Federal Employees.
                                                                                                                                                               6
   The Office of the Chief Financial Officer (CFO) and the Information
    Technology organization, Applications Development Office, share dual
    responsibility over IFS operations.
   The IFS uses a version of software that is more than 10 years old.
    Beginning in Fiscal Year 2011, the vendor ceased providing new changes
    to accommodate new legislative or Federal accounting requirements.
   The vendor provided only customer-specific support, charging maintenance
    to keep the outdated version operational. Thus, the IRS is paying a
    premium to maintain the IFS and, if successful, the updates will allow the
    IRS to reduce maintenance costs.
   During Fiscal Year 2011, the IRS established an extended agreement
    with the vendor to provide necessary maintenance support through
    January 2013.




                                                                                 7
   For Fiscal Years 2012 and 2013, the IRS requested nearly $37.5 million
    to fully upgrade the IFS software.
   The proposed IFS upgrade was not fully funded; however, the IRS received
    approximately $10.5 million for specific IFS updates.
   These IFS updates include:
       Systems Applications and Products (SAP) Netweaver Single Sign-On Secure
        Network Connection (SNC) to encrypt graphical user interface traffic.
       SAP 4.6C to Enterprise Central Component (ECC) 6.0 establishing the current
        technology platform with functional enhancements.
       The Internet Payment Platform, a Department of the Treasury mandate for all
        Federal agencies, to be implemented in conjunction with SAP ECC 6.0.
   The IRS is considering additional IFS modifications, which were part of
    the $37.5 million full system upgrade request, if funding is approved. This
    would include budget formulation and reimbursable systems modules and
    integrating the IFS with the Integrated Procurement System.
                                                                                      8
                           Audit Objective
   Determine whether the IRS has adequately planned for IFS updates to
    support long-term goals and to mitigate risks in accordance with the
    Department of the Treasury, IRS, and other systems development
    guidelines.
       Determine whether the IFS Project Management Office has established
        key management controls and processes in accordance with systems
        development guidelines.
       Determine whether project funding for the IFS update is current,
        accurate, and complete.
       Determine if the IFS includes adequate security controls to address
        system security risks prior to deployment of the updates.




                                                                              9
                       Results of Review
   IFS Updates Address Compliance and Specific Security Weaknesses
    (see slide 11).
   Remaining IFS Security Issues Should Be Addressed
    (see slides 12 through 21).
   Systems Requirements Testing Processes Did Not Consistently Comply
    With Guidelines (see slides 22 through 26).




                                                                         10
                 IFS Updates Address Compliance
                 and Specific Security Weaknesses
   The IFS updates management team established the Project Tailoring Plans
    and issued systems development plans covering key processes.
   Funding amounts were documented for each of the IFS updates.
   In July 2012, the IRS implemented the SAP SNC, providing for data
    encryption and eliminating security weaknesses in the Citrix and IFS
    Windows 2000 environments no longer supported by the vendor.
   The IRS reported a cost savings of approximately $1 million per year for
    technical support resulting from eliminating the Citrix servers.
   With successful implementation of SAP ECC 6.0, the IRS stated that the
    IFS will be in compliance with current Federal laws and accounting
    standards and will address the security weakness related to Oracle database
    software that is no longer supported by the vendor.




                                                                               11
                    Remaining IFS Security Issues
                       Should Be Addressed

IFS users have access to Personally Identifiable Information (PII)
without a business need
   The Office of Management and Budget and the Internal Revenue Manual
    (IRM) 10.5.1. require that unique identifiers be used in place of Social
    Security Numbers (SSN) on systems, where possible, to prevent
    unnecessary disclosure of PII.
   The IRM also requires that individuals with access to sensitive data,
    including SSNs and PII, have a “need to know” based upon the
    performance of their job duties and receive managerial authorization for
    system access.




                                                                               12
   IFS screens display SSNs in clear text, along with associated PII.
    Approximately 320 IFS users access the system using SSNs to perform
    vendor and document analysis as part of their IFS duties.
       Further, currently there are approximately eight IFS users who have access to
        this information, even though it is not part of their IFS duties.
       In May 2012, the CFO and the Chief Technology Officer (CTO) drafted a Risk-
        Based Decision (RBD) and Plan of Action and Milestones to address this
        weakness and are awaiting stakeholders’ comments.
       Based on discussions, the IRS proposed a short-term solution to review and
        remove users who do not have a “need to know” by March 2013, after
        deployment of the IFS update.
       The IRS also proposed a long-term solution that will require changes to the IFS
        screens by limiting the number of authorized users and masking of the SSNs;
        however, this solution will require additional time beyond March 2013 and
        additional funding.


                                                                                        13
                                                                                                     2
   In addition, 110 IFS users have access to the 1099 and W-2 system data
    for some IRS employees and vendors, but reasonable access control checks
    are not in place, such as those that would identify or prevent a user viewing
    another IRS employee’s tax information. Specific types of employee tax
    information include long-term travel and tuition assistance payments.
       IFS management stated that the potential for inappropriate use is low as the data
        do not include taxable earnings; therefore, no corrective actions were taken.
        We maintain that any inappropriate access is unacceptable.
       Following audit discussions, the CFO initiated plans to look at the business
        process impacts of implementing changes after the IFS update deployment.
        Until this analysis can be conducted, the CFO has accepted the risk and plans to
        establish an RBD.




_________________________

2 The 1099 system includes information from various versions of Forms 1099 used to report types of
income such as interest, dividends, and miscellaneous income. The W-2 system includes information
                                                                                                         14
from Forms W-2, Wage and Tax Statement.
   The loss, theft, or unauthorized disclosure of PII places individuals at risk
    for identity theft and invasion of privacy. The proper protection of PII
    helps maintain system integrity and the IRS’s reputation for privacy
    protection, which are critical for the IRS to perform its mission.
   Management Action: After we advised the CFO staff that there were an
    unknown number of IFS users with access to PII, they performed an
    analysis to determine which users should not have access to PII.




                                                                                    15
                             Recommendations

   Recommendation 1: The CTO should work with the CFO to implement
    access controls necessary to ensure that IFS users are adequately restricted
    from IRS employee sensitive data, including SSNs and PII, until the
    planned long-term solution can be implemented.
       Management’s Response: The IRS agreed with this
        recommendation. The IRS will review IFS access to IRS employee
        sensitive data, including SSNs and PII, and restrict access to only those
        users with a “need to know.”
   Recommendation 2: The CTO should work with the CFO to either
    implement access control checks to prevent IFS users from accessing
    unauthorized IRS employee accounts or to appropriately document this
    risk.
       Management’s Response: The IRS agreed with this
        recommendation. The IRS will conduct an analysis and remove users
        who do not have a “need to know” and evaluate the identified low risk
        to determine if an RBD is needed.
                                                                                    16
SAP SNC is FIPS 140-2 compliant but not yet certified for validation
   The Federal Information Processing Standards (FIPS) Publication 140-2,
    Security Requirements for Cryptographic Modules, specifies security
    requirements when cryptographic modules are used within a security
    system protecting sensitive information.
   The National Institute of Standards and Technology (NIST) recommends
    and IRM 10.8.1. requires that the IRS use only cryptographic modules that
    have been validated in accordance with FIPS 140-2 or later.
   Protection of a cryptographic module within a security system is critical to
    maintain the confidentiality and integrity of the information protected by
    the modules.
   On March 19, 2012, the Office of the CFO and the Information Technology
    organization (formally known as Modernization and Information
    Technology Services) both signed an RBD stating that implementation of
    the SAP SNC solution would strengthen the system’s internal controls.

                                                                                   17
   On June 16, 2012, the IRS deployed the SAP SNC solution, replacing the
    outdated Citrix software, for the IFS. However, IFS management informed
    us that the new solution is FIPS 140-2 compliant but not yet certified for
    validation.
   During development and testing of the new SAP software, the Office of the
    CFO received a waiver from the Enterprise Architecture Office to operate
    the IFS, but production deployment was contingent upon obtaining the
    certification.
   IFS management stated that the cryptographic module will be FIPS 140-2
    certified with the next version of the IFS, approximately late in 2013, after
    deployment of the IFS update.
   If requirements are not followed, the IFS will not comply with NIST and
    IRS standards to adequately protect and reduce serious risk that includes
    unauthorized access or loss of sensitive data.


                                                                                    18
                             Recommendation
   Recommendation 3: The CTO should work with the CFO to update and
    document the status in the System Security Plan (SSP) as FIPS 140-2
    certified with the next version of the IFS in Fiscal Year 2013.
       Management’s Response: The IRS agreed with this
        recommendation. SAP and NIST test centers have notified the IRS that
        the FIPS 140-2 certification of the SNC module will be completed in late
        2013. Once certification is completed, the IFS will implement the new
        version of the SNC.




                                                                              19
The IFS does not yet provide for multifactor authentication
   The NIST recommends user identities be authenticated through the use of
    passwords, tokens, biometrics, or a combination thereof. Based upon this
    criteria, multifactor authentication for systems administration access is
    required for the IFS.
   The IFS SSP states that the IFS relies on the Modernization and
    Information Technology Services General Support System-18 for
    identification and authentication. However, General Support System-18
    does not support multifactor authentication of system administrators.
   The IRS has recognized that deployment of two-factor authentication is a
    program-level control weakness and plans to implement two-factor
    authentication as part of an enterprise solution.
   If the IRS does not provide multifactor authentication for IFS system
    administrators, this could result in the reliance on outdated, insecure
    password authentication for network and local authentication used to
    protect sensitive data, including SSNs and PII.
                                                                                20
                              Recommendation

   Recommendation 4: The CTO should work with the CFO to implement
    two-factor authentication and, in the short term, identify compensating
    authentication controls for IFS system administrators.
       Management’s Response: The IRS agreed with this
        recommendation. The CTO will ensure that the IFS is included in the
        current program-level mitigation strategy to implement two-factor
        authentication and identify a form of multifactor authentication for IFS
        system administrators.




                                                                                   21
              Systems Requirements Testing Processes
             Did Not Consistently Comply With Guidelines

Not all test cases included expected results
   IRM 2.6.1 requires that test cases should be developed to support
    requirements testing. Test cases should include requirements being tested
    and the expected results.
   During testing for IFS system updates, the expected results in the test cases
    should be compared to the actual results observed by the tester to determine
    whether the requirements were sufficiently tested.
                                           3
   We judgmentally sampled and reviewed 10 of the 363 total IFS system
    update requirements to determine whether test cases were properly
    developed in accordance with IRM 2.6.1. We selected seven functional
    and three security requirements to represent the different types of IFS
    requirements.


_________________________

3 A judgmental sample is a nonstatistical sample, the results of which cannot be used to project to the
population. Judgmental sampling was used because we did not intend to project our results.                22
   The 10 sampled requirements related to four test cases. The test cases did
    not always include the expected results, and one test case only included
    expected results for one of 15 test steps.
   IFS management informed us that the expected results for the four test
    cases included a spreadsheet of budget figures that was too large to attach
    to the test cases.
   As a result, IFS testers needed to obtain information outside the approved
    test cases to verify that the requirements were tested.
   When expected results are not fully presented in test cases, the risk of
    accepting inadequate test results increases, which could adversely affect
    IFS functionality.




                                                                                  23
                              Recommendation

   Recommendation 5: The CTO should work with the CFO to ensure
    that all applicable IFS test cases include expected results to validate that
    systems requirements were sufficiently tested.
       Management’s Response: The IRS agreed with this
        recommendation. The Enterprise System Test group will implement
        standard processes and tools for Systems Acceptance Testing in
        accordance with soon-to-be issued IRM changes. The Enterprise
        System Test group is working to link its Rational Quality Manager to
        the RequisitePro requirements repository so that full requirements test
        management can be adequately and accurately documented.




                                                                                   24
Testers did not always obtain documentation to validate the actual test
results
   IRM 2.6.1. requires that testers obtain and maintain evidence to validate the
    actual test results, which could include computer screen prints, input and
    output data files, and system logs.
   The testers did not always obtain and maintain documentation for four of
    10 sampled requirements to validate the actual test results.
   IFS management did not ensure that testers consistently followed IRM
    guidelines to obtain and maintain objective evidence, such as screen prints,
    to verify that requirements were sufficiently tested.
   If the documents used to verify actual test results are not available, then the
    IRS cannot verify the adequacy of its systems testing activities. This
    increases the risks of adverse impact on the functionality of the IFS.



                                                                                  25
                             Recommendation

   Recommendation 6: The CTO should work with the CFO to ensure that
    all IFS testers obtain and maintain documentation to verify actual test case
    results.
       Management’s Response: The IRS agreed with this
        recommendation. The EST group will implement standard processes
        and tools for SAT testing in accordance with soon-to-be-issued IRM
        changes. EST is working to link its RQM to the RequisitePro
        requirements repository so that full requirements test management can
        be adequately and accurately documented.




                                                                                26
                                                                                 Appendix I
                            Detailed Objective,
                          Scope, and Methodology
   Overall Objective: Determined whether the IRS had adequately planned for IFS
    updates to support long-term goals and to mitigate risks in accordance with
    Department of the Treasury, IRS, and other systems development guidelines.
   Determined whether the IFS Project Management Office had established key
    management controls and processes in accordance with Department of the Treasury,
    IRS, and other systems development guidelines. We considered the following
    program and project controls for the IFS:
       Applicable guidance from Department of the Treasury, IRS, and SAP best
        practices.
       Established plans with the Integrated Procurement System.
       Integrated master schedules, work breakdown structures, and schedules.
       Program and project charters.
       Program and project management plans.
       Risk and issue management plans.
       Requirements management plans.


                                                                                       27
                                                                               Appendix I




       Configuration and change management plans.
       Test management plans.
       Human resources.
   Considered project funding for the IFS update by reviewing:
       Estimated costs and benefits and supporting documentation.
       Cost tracking mechanisms for IFS update.
       Contract management practices including task order for the project.
   Reviewed security controls identified in the SSP.
       Determined whether the IFS SSP includes adequate security controls for the
        system updates.
       Determined whether all security and privacy requirements were adequate.
       Determined whether all security risks were adequately addressed.




                                                                                     28
                                                                               Appendix I




   This review was performed at the Office of the CFO and Information Technology
    organization in New Carrollton, Maryland, from July through October 2012.
   We conducted this performance audit in accordance with generally accepted
    government auditing standards, which require that we plan and perform the audit
    to obtain sufficient, appropriate evidence to provide a reasonable basis for our
    findings and conclusions based on our audit objective. We believe that the
    evidence obtained provides a reasonable basis for our findings and conclusions
    based on our audit objective.




                                                                                       29
                                                                                  Appendix I




Internal Controls Methodology
   Internal controls relate to management’s plans, methods, and procedures used to
    meet their mission, goals, and objectives. Internal controls include the processes
    and procedures for planning, organizing, directing, and controlling program
    operations. They include the systems for measuring, reporting, and monitoring
    program performance.
   We determined the following internal controls were relevant to our audit objective:
    NIST Special Publication 800-53, the IRM, and related systems development
    guidelines applicable to the IFS.
   We evaluated these controls by conducting interviews with management and staff
    from both the Office of the CFO and the Information Technology organization and
    reviewing relevant policies and procedures for the IFS update.
   Documents reviewed included the IFS Project Management Plan, the IFS
    Application SSP, and other documents that provided evidence of whether the IRS
    has adequately planned for IFS updates to support long-term goals and to mitigate
    risks.


                                                                                          30
                                                                              Appendix II
                   Major Contributors to This Report

   Alan R. Duncan, Assistant Inspector General for Audit (Security and Information
    Technology Services)
   Gwendolyn McGowan, Director
   Suzanne Westcott, Audit Manager
   Louis Lee, Acting Audit Manager
   Cari Fogle, Senior Auditor
   Wallace Sims, Senior Auditor
   Trisa Brewer, Auditor




                                                                                      31
                                                                              Appendix III
                             Report Distribution List

   Acting Commissioner C
   Office of the Commissioner – Attn: Chief of Staff C
   Deputy Commissioner for Operations Support OS
   Deputy Commissioner for Services and Enforcement SE
   Chief Financial Officer OS:CFO
   Deputy Chief Information Officer for Operations OS:CTO
   Associate Chief Information Officer, Applications Development OS:CTO:AD
   Chief Counsel CC
   National Taxpayer Advocate TA
   Director, Office of Legislative Affairs CL:LA
   Director, Office of Program Evaluation and Risk Analysis RAS:O
   Office of Internal Control OS:CFO:CPIC:IC
   Director, Privacy, Governmental Liaison, and Disclosure OS:P
   Audit Liaison: Director, Risk Management Division OS:CTO:SP:RM
                                                                                     32
                                                                                                      Appendix IV
                                       Glossary of Terms

Term                                                         Definition
Cryptographic           The art of writing or deciphering messages in code.
Encryption              The process of making data unreadable by other humans or computers for the purpose of
                        preventing others from gaining access to its contents.
Federal Information     A set of standards that describe document processing, encryption algorithms, and other
Processing              information technology standards for use within nonmilitary Government agencies and
Standards               by Government contractors and vendors who work with the agencies.
General Support         The system provides appropriately identified, authenticated, and authorized user access
System-18               to tax administration business applications and provides those tax administration
                        business applications access to data stores containing business records.
Integrated              An Office of Management and Budget reported Financial Management System and a
Procurement             procurement system used to track obligations, create solicitations and awards, handle
System                  vendor files, and generate reports.
Interface               A point at which independent systems interact.
Multifactor             Multifactor authentication is achieved by combining two or three independent
Authentication          credentials: what the user knows (password/Personal Identification Number), what the
                        user has (security token security or smart card), and what the user is (biometric
                        verification).
National Institute of   A nonregulatory Federal agency within the Department of Commerce that is responsible
Standards and           for developing standards and guidelines, including minimum requirements, for providing
Technology              adequate information security for all Federal Government agency operations and assets.
                                                                                                                 33
                                                                                                       Appendix IV
                                      Glossary of Terms

Term                                                         Definition
Personally            Information that can be used to uniquely identify, contact, or locate a single individual or
Identifiable          that can be used with other sources to uniquely identify a single individual.
Information
Plan of Action and    A management process that outlines weaknesses and delineates the tasks necessary to
Milestones            mitigate them.
Requirement           A formalization of a need and statement of a capability or condition that a system must
                      have or meet to satisfy a contract, standard, or specification.
Risk-Based Decision   NIST 800-53 and IRM 10.8.1 guidance allows Designated Approving Authorities to
                      tailor security control baselines for their systems using a cost-effective, risk-based
                      approach.
Test Case             A test case is created to specify and document the conditions to be tested and to validate
                      that system functions meet requirements as translated into documented functional design.
                      A test case also tests outside the normal or expected functions in order to find defects.
Two-Factor            Two-factor authentication is a security process in which the user provides two means of
Authentication        identification, one of which is typically a physical token, such as a card, and the other of
                      which is typically something memorized, such as a security code. This type of
                      authentication method also meets the definition of multifactor authentication.
Validation            Verification that something is correct or conforms to a certain standard.



                                                                                                                34
                                                     Appendix V
            Management’s Response
              to the Draft Report




Management’s complete response to the draft report
     is included beginning on the next page.




                                                           35
36
37
38
39
